2311 Douglas Street
Omaha, Nebraska 68102-1214

7
COCKLE

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-1115

AMERICAN BANKERS ASSOCIATION,

Petitioner,

v.
NATIONAL CREDIT UNION ADMINISTRATION,

Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF PACIFIC LEGAL FOUNDATION

IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

To be filed for:
STEVEN M. SIMPSON
Pacific Legal Foundation
3100 Clarendon Blvd., Suite 610
Arlington, VA 22201

Subscribed and sworn to before me this 10th day of April, 2020.

SEE ATTACHED

GLENN E, ROPER

Counsel of Record
Pacific Legal Foundation
1745 Shea Ctr. Dr., Suite 400
Highlands Ranch, CO 80129
Telephone: (916) 419-7111
geroper@pacificlegal.org

Counsel for Amicus Curiae
Pacific Legal Foundation

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Medraska

RENEE J, GOSS
My Comm. Exp. September 5, 2023

 

Knee. 0, Hoos Oudraw-h, Ql

LQ
Affiant 39645"
American Bankers Association v.
National Credit Union Association, No. 19-1115
Service List

Counsel for Petitioner American Bankers Association:

Robert A. Long, Jr., Counsel of Record
Kevin F. King

Lauren K. Moxley

COVINGTON & BURLING LLP

One CityCenter

850 Tenth Street, NW

Washington, DC 20001

Telephone: (202) 662-6000
rlong@cov.com

Counsel for Respondent National Credit Union Association:

Noel J. Francisco

Solicitor General

United States Department of Justice
Room 5616

950 Pennsylvania Ave., NW
Washington, DC 20530-0001
Telephone: (202) 514-2217
SupremeCtBriefs@USDOJ.gov
